Case: 21-1578

Document: 16

Page: 1

Filed: 06/08/2021

JC«)
NOTE: This order is nonprecedential.

©nitcb States Court of Appeals
for tJje Jpeberal Circuit
ALBERTO SOLAR SOMOHANO,
Appellant
v.
ANDREW HIRSHFELD, PERFORMING THE
FUNCTIONS AND DUTIES OF THE UNDER
SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR OF
THE UNITED STATES PATENT AND TRADEMARK
OFFICE,
Appellee
2021-1578
Appeal from the United States Patent and Trademark
Office, Trademark Trial and Appeal Board in No.
87575740.
ON PETITION FOR PANEL REHEARING
Before PROST*, O’MALLEY, and WALLACH**, Circuit Judges.

*
Circuit Judge Sharon Prost vacated the position of
Chief Judge on May 21, 2021.
*
Circuit Judge Evan J. Wallach assumed senior
status on May 31, 2021.

Case: 21-1578

Document: 16

Page: 2

Filed: 06/08/2021

SOLAR SOMOHANO V. HIRSHFELD

2

Per Curiam.
ORDER
Alberto Solar Somohano filed a petition for panel
rehearing. On June 1, 2021, Mr. Somohano filed a docu­
ment that the court construes as a motion for leave to
supplement his petition.
Upon consideration of the petition and proposed
supplement,
It Is Ordered That:
The motion to supplement is granted.
The petition for panel rehearing, as supplemented, is
denied.
The mandate of the court will issue on June 15, 2021.
For the Court
June 8. 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case: 21-1578

Document: 13

Page: 1

Filed: 04/20/2021

56)
NOTE: This order is nonprecedential.

GHrateb States! Court of Appeals
for tlje Jfeberal Circuit
ALBERTO SOLAR SOMOHANO,
Appellant
v.
ANDREW HIRSHFELD, Performing the Functions
and Duties of the Under Secretary of Commerce for
Intellectual Property and Director of the United
States Patent and Trademark Office,
Appellee
2021-1578
Appeal from the United States Patent and Trademark
Office, Trademark Trial and Appeal Board in No.
87575740.
Before PROST, Chief Judge, O’MALLEY and WALLACH, Cir­
cuit Judges.
Per Curiam.
ORDER
In response to the court’s February 25, 2021 order to
show cause why this appeal should not be dismissed, the
United States Patent and Trademark Office (USPTO)

Case: 21-1578

Document: 13

Page: 2

Filed: 04/20/2021

SOLAR SOMOHANO v. HIRSHFELD

2

urges dismissal. Alberto Solar Somohano opposes dismis­
sal.
Mr. Solar Somohano seeks review of an August 4, 2020
Final Office Action issued by a USPTO trademark examin­
ing attorney refusing registration of his trademark. On
September 17, 2020, Mr. Solar Somohano requested recon­
sideration, which the examining attorney denied on Febru­
ary 3, 2021. Meanwhile, the court received Mr. Solar
Somohano’s notice of appeal on January 11, 2021.
A trademark applicant like Mr. Solar Somohano who is
dissatisfied with a trademark examining attorney’s rejec­
tion of a trademark may proceed with a two-step process
for seeking further review. First, “[a]n appeal may be
taken to the Trademark Trial and Appeal Board from any
final decision of the examiner[.]” 15 U.S.C. § 1070. Second,
an applicant dissatisfied with the final decision of the
Board may then appeal the Board’s decision to this court.
28 U.S.C. § 1295(a)(4)(B).
Here, Mr. Solar Somohano is impermissibly attempt­
ing to bypass the statutory scheme and to appeal the ex­
amining attorney’s decision directly to this court. Cf.
Teacherson v. PTO, 232 F.3d 907, 2000 WL 274172, at *2
(Fed. Cir. Mar. 10, 2000) (“The Patent Act created the PTO
review process, imposing the duty to follow a specified ap­
peal process on both applicant and PTO. The Act does not
create jurisdiction to circumvent these statutory appeal
routes.”). We therefore agree that this appeal must be dis­
missed.
Accordingly,
It Is Ordered That:
(1) The appeal is dismissed.
(2) Each side shall bear its own costs.

Case: 21-1578

Document: 3

Page: 1

Filed: 02/02/2021

*<S)
NOTE: This order is nonprecedential.

fHrnteb Stated Court of Appeals
for tf)e Jfeberal Circuit
ALBERTO SOLAR SOMOHANO,
Appellant
v.
THE COCA-COLA COMPANY,
Appellee
2021-1578
Appeal from the United States Patent and Trademark
Office, Trademark Trial and Appeal Board in No.
87575740.

ORDER
Alberto Soler Somohano notifies the court that he is
challenging the Trademark Trial and Appeal Board’s
decision as rendered by a panel of administrative trade­
mark judges who were appointed in violation of the Ap­
pointments Clause of the Constitution.
Upon notice of the fact that “a party questions the
constitutionality of an Act of Congress in a proceeding in
which the United States ... is not a party,” the clerk of
this court must “certify that fact to the Attorney General.”
Fed. R. Civ. P. 44(a), see also 28 U.S.C. § 2403(a) (“In any

Case: 21-1578

2

Document: 3

Page: 2

Filed: 02/02/2021

SOLAR SOMOHANO v. COCA-COLA COMPANY

action ... in a court of the United States to which the
United States ... is not a party, wherein the constitution­
ality of any Act of Congress affecting the public interest is
drawn in question, the court shall certify such fact to the
Attorney General, and shall permit the United States to
intervene ... for argument on the question of constitu­
tionality.”).
Upon consideration thereof,
It Is Ordered That:
(1) Notice of Mr. Solar Somohano’s constitutional
challenge is hereby certified to the Attorney General.
(2) No later than 30 days from the date of filing of
this order, the Attorney General is directed to inform this
court whether the United States intends to intervene in
this appeal.
(3) The briefing schedule is stayed.
For the Court
February 02. 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

s29
cc: United States Attorney General

